                               UNITED STATES DEPARTMENT OF EDUCATION

                                                  OFFICE OF INSPECTOR GENERAL



MANAGEMENT INFORMATION REPORT                                             AUG 22         2003
Student Financial Assistance No. 03-01


TO: 	            Sally Stroup
                 Assistant Secretary for Postsecondary Education

FROM:            HelenLew~W
                 Assistant Inspector General for Audit Services

SUBJECT: 	       PLUS Could Be Disbursed to Ineligible Non-Citizens
                 Control Number ED-OIG/E06-D0008

Based on our audit work at Fashion Institute of Design and Merchandising, Los Angeles, California,
and at FlightSafety Academy, Vero Beach, Florida, relating to the citizenship requirements for
Federal PLUS and Federal Direct PLUS program loan borrowers, we determined that the potential
exists for ineligible non-citizens to receive PLUS loans. Contrary to the requirements of the Higher
Education Act of 1965, as amended (REA), the Department of Education (Department) has not
established the same verification requirements for parents that apply to student borrowers.

The Department verifies the citizenship status of students through data matches with the Social
Security Administration (SSA) and the Department of Homeland Security (DHS)! during the
processing of the students' application for finartcial aid. If the data matches are unable to conclude
the citizenship status of the students, comments are generated and passed on to school officials.
These data matches are not performed for parents or endorsers.

At one of the schools we visited, school officials failed to resolve citizenship-related comments for
five of the 50 PLUS loan recipients in our sample. School officials awarded $67,221.32 to these
five PLUS loan borrowers without determining if these borrowers met Title IV citizenship
requirements. 	We contacted the Immigration and Naturalization Service and confirmed that,
fortunately, the five sample students and their parents were eligible to receive the PLUS loans.
However, the procedures in place at the school were not sufficient to ensure that only eligible
recipients received Title IV aid.

In award year 2000/01, over $3.3 billion in PLUS loan funds was disbursed to almost 480,000
PLUS loan borrowers. Of the $3.3 billion, over $65 million was disbursed to approximately 11,000
parents of students for whom SSA and/or DHS citizenship match results were inconclusive and did
not verify the students' eligibility for Title IV funds. Because the guidance provided to schools is

1 Effective March 1,2003, the service side ofthe Immigration and Naturalization Service which dealt with citizenship,
naturalization, work permits, and other immigration benefits became the Bureau of Citizenship and Immigration
Services, Department of Homeland Security.


                                         400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

                 Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Sally Stroup                                                                                            Page 2 of 4


inadequate, the potential exists that the Department could have disbursed some of this $65 million
to parents who are ineligible non-citizens. We suggest that the Department strengthen guidance to
schools regarding verifying citizenship status of parent borrowers and establish guidance on
verifying citizenship status of loan endorsers.

Citizenship Requirements for Title IV Eligibility

Under Section 428B(a)(1)(B) of the HEA, a parent borrower must meet all eligibility requirements
established by regulation. Pursuant to 34 C.F.R. §§ 682.201(b)(1)(iii) and 685.200(b)(1)(iii), PLUS
loan borrowers must meet “the requirements pertaining to citizenship and residency that apply to
the student in 34 CFR 668.33.”2 Section 428B(f)(1) of the HEA specifies that the immigration
status of parents shall be subject to verification “in the same manner” as students.

The Federal Student Aid Handbook 2002-2003 (Handbook) states—

         If a parent wants to take out a Federal PLUS Loan for a dependent undergraduate
         student, both the parent and the student must be U.S. citizens or nationals, permanent
         residents, or eligible noncitizens. The CPS [Central Processing System] doesn’t
         match the parent’s citizenship status with Immigration records, so a parent who is a
         permanent resident or other eligible noncitizen must provide documentation of that
         status to you.

Lack of Guidance to Schools Could Result in PLUS Loans Disbursed to Ineligible Non-Citizen
Parents and Endorsers

Although the Department has provided guidance to schools on how schools should determine and
document the eligibility of citizenship status of students, it has provided little guidance to schools
regarding procedures for determining and documenting the citizenship status of PLUS loan
borrowers. The Handbook devotes a complete chapter (Volume 1, Chapter 2) on the procedures
schools should follow to ensure students meet the citizenship requirements. For PLUS loan
borrowers, the Handbook includes only one sentence, which simply states that when parents are
permanent residents or other eligible non-citizens, documentation of this status should be provided
by the parents.

Further, the Handbook does not provide any guidance on how schools should determine and
document the citizenship status of PLUS loan endorsers. In fact, the only place the citizenship
status of an endorser is mentioned appears to be on the Endorser Addendum to the PLUS
application, which states that an endorser must be a citizen.

Additionally, since the Department does not verify the citizenship status of parents who apply for
PLUS loans or of their endorsers, even when SSA and/or DHS match results are inconclusive
concerning the citizenship eligibility of the parents’ undergraduate students, the potential exists that


2
 Parents who are ineligible for a PLUS loan because of an adverse credit history may still receive a loan if they can
obtain an endorser who has been determined not to have an adverse credit history. The guidance does not address
PLUS loan endorsers.
Sally Stroup 	                                                                             Page 3 of 4


some of the $3.3 billion in PLUS loans disbursed in award year 2000/01 were disbursed to
ineligible non-citizens.

The audit work upon which this management information report is based, at Fashion Institute of
Design and Merchandising and at FlightSafety Academy, was performed in accordance with
generally accepted government auditing standards appropriate to the scope of those audits.

Suggestions

We acknowledge that verifying citizenship status of PLUS loan parents and endorsers can not be
performed by the current process used for students since the citizenship data sent to the SSA and
DHS is obtained from the student’s application. PLUS loan parents and endorsers are not required
to submit this application. However, citizenship status of PLUS loan parents and endorsers must be
confirmed to prevent ineligible non-citizens from receiving Title IV aid. We suggest that the
Department develop procedures to verify the citizenship status of PLUS loan borrowers and
endorsers “in the same manner” as students. The Department should develop procedures for parent
borrowers and endorsers like those currently in place for student borrowers:

   1. 	 When a parent submits an application for a PLUS loan, or an endorser submits an endorser
        addendum, require the school or lender to request a match of the parent’s or endorser’s
        citizenship data with SSA and/or DHS.

   2. 	 If SSA or DHS data match results are inconclusive, require schools to verify the parent or
        endorser’s citizenship status before disbursing Title IV aid. Specifically, schools should be
        required to—

           a) 	 For U.S. citizens, obtain a copy of the birth certificate, U.S. passport, or other
                applicable citizenship documentation.

           b) For eligible non-citizens, obtain a copy of citizenship documentation (e.g., Form
              I-151 and Form I-94), and submit the documentation, along with a Form G-845S, to
              the local DHS district office requesting eligibility status confirmation.

Comments on the Proposed MIR and OIG’s Response

The Department’s Office of Postsecondary Education (OPE) did not concur with our suggestions.
We did not change our conclusions based on OPE’s response. A copy of the letter from OPE is
included as an Attachment to this MIR.

OPE’s Comments. OPE stated that our report “suggests that the Department establish an additional
eligibility requirement for all PLUS borrowers and endorsers: a computer data match of FAFSA
information . . . .” Because our report did not find that Federal funds were disbursed to ineligible
recipients, OPE was not certain whether additional guidance or other measures, such as imposing an
additional eligibility requirement, are warranted. OPE stated that “the Department must balance an
appropriate level of administrative costs and burden on students and institutions with effective
program integrity measures that consider the program resources at risk.”
Sally Stroup                                                                          Page 4 of 4


However, OPE did state, “[W]e recognize the possibility that PLUS loans could be disbursed to
borrowers who are ineligible noncitizens with respect to the federal student assistance programs.”
OPE plans to expand on our audit work by “drawing a sample of PLUS borrowers from the
National Student Loan Data System and assessing the Title IV eligibility of the students on whose
behalf these parents borrowed.” The results of the Department’s analysis will inform the
Department in its decision regarding our suggested corrective actions.

OIG’s Response. We are not suggesting an additional eligibility requirement for PLUS borrowers.
The HEA currently requires that PLUS borrowers satisfy the same conditions as student borrowers,
which include the citizenship requirements in Section 484(a)(5). Section 428B(f) requires that the
immigration status of a parent borrower be subject to verification “in the same manner as
immigration status is verified for students under section 484(g).” (Section 428B(f) similarly
requires that the Social Security Numbers for PLUS borrowers be verified in the same manner as
for students.) While it is true that we did not find ineligible borrowers in our sample, we do not
agree that the Department has the option of foregoing verification based on the results of further
analysis. We do acknowledge that the Department could, due to practical considerations,
implement alternatives to our suggestions, to ensure compliance with the HEA's verification
requirement.


Attachment

cc: Theresa S. Shaw, Chief Operating Officer, FSA
                                                                                                       Attachment

                     UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF POSTSECONDARY EDUCATION

                                                                                          THE ASSISTANT SECRETARY
                                                  JUN 26 2003

Ms. Helen Lew
Assistant Inspector General
 for Audit Services
U.S. Department of Education
Office of Inspector General
400 Maryland Avenue, S.W.
Washington, DC 20202-1510

Dear Ms. Lew:

Thank you for the opportunity to review and comment on the proposed management
information report, "Parent Loans for Undergraduate Students (PLUS) Could Be
Disbursed to Ineligible Non-Citizens," Control Number ED-OIG/E06-D0008, issued May
16,2003.

Under current program requirements, an institution must separately document an eligible
noncitizen borrower's eligibility for a PLUS loan. This is because the PLUS program
eligibility provisions of the Higher Education Act do not require parents to submit the
Free Application for Federal Student Aid (F AFSA). Rather, the parent must complete a
combined promissory note/application and submit it. This enables families to avoid the
unnecessary and burdensome process of filing a FAFSA when they know that the student
will not qualify for, or the family does not choose to apply for, other types of student aid.
Further, it allows parents to quickly apply for an unsubsidized PLUS Loan when families
encounter unforeseen financial needs.

The proposed management report recommends that the Department provide additional
verification guidance to schools regarding verification for PLUS Loans. Further, the
report suggests that the Department establish an additional eligibility requirement for all
PLUS borrowers and endorsers: a computer data match ofFAFSA information with
Social Security Administration and/or U.S. Department of Health and Human Services
databases.

The proposed recommendation and suggestion were made on the basis of an analysis of
50 PLUS recipients. Of the 50 cases reviewed, the eligibility of five recipients was
further investigated. Significantly, the final results confirmed that all 50 of the recipients
fully met the PLUS eligibility requirements. No federal funds were disbursed to
ineligible recipients.

In light of the lack of findings, it is unclear to us if additional guidance or other measures,
such as imposing an additional eligibility requirement are warranted. Modifying the loan
application process to require all PLUS borrowers (and the student for whom they are



                         600 INDEPENDENCE AVE., S.W. WASHINGTON. D.C. 20202-5lO0 


  Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation. 

Page 2 - Ms. Helen Lew
                                                                               Attachment


borrowing) to undergo inter-agency matching of parents' citizenship information would
require changing the Central Processing System and adding additional questions to the
FAFSA. Additionally, it would increase burden for parents and students who are seeking
 federal assistance solely from the PLUS program and add an additional step to the loan'
.process, which would impact both institutional and Departmental processes. In
 effectively administering the PLUS program, the Department must balance an
 appropriate level of administrative costs and burden on students and institutions with
 effective program integrity measures that consider the program resources at risk. The
 lifetime PLUS loan default rate is approximately one-half that of the student loan
program.

Although these findings do not appear to warrant immediate changes, we recognize the
possibility that PLUS loans could be disbursed to borrowers who are ineligible
noncitizens with respect to the federal student assistance programs. Therefore, we plan to
analyze this issue in greater detail. Our analysis plan would expand upon the finding
described in the proposed management information report by drawing a sample of PLUS
borrowers from the National Student Loan Data System and assessing the Title IV
eligibility of the students on whose behalf these parents borrowed. We anticipate that the
results ofthis analysis will inform the Department's decision with respect to the
suggested corrective actions described in the proposed management information report.

Again, we appreciate the opportunity to comment on the proposed management
information report.

                                     Sincerely,


                                     ~~'-J.~~
                                     Sally ~roup
                                           L.
